   Office of Inspector General
   Railroad Retirement Board



  SEMIANNUAL REPORT
        to the
      CONGRESS

April 1, 2004 - September 30, 2004




                      Martin J. Dickman

                      Inspector General

                    UNITED STATES RAILROAD RETIREMENT BOARD

                               OFFICE OF INSPECTOR GENERAL




                                          October 29, 2004



The Honorable Michael S. Schwartz

Chairman

Railroad Retirement Board

844 North Rush Street

Chicago, IL 60611-2092



Dear Mr. Schwartz:


I am pleased to submit the Semiannual Report to the Congress on the activities

of the Office of Inspector General (OIG) for the period April 1, 2004 through 

September 30, 2004. The report is submitted in accordance with section 5 of the

Inspector General Act of 1978 (Public Law 95-452, as amended). The Act

requires that you transmit this report, along with any comments you may wish to

make, to the appropriate Congressional committees and subcommittees within

30 days.


This report provides descriptions of OIG reviews, audits and investigations

performed during this semiannual reporting period. We continued to focus audit

resources on financial management issues and information system security

activities. Our criminal investigators achieved 18 convictions, 16 indictments and

informations, and $21,344,037 in recoveries, restitutions, fines, civil damages

and penalties. 


We wish to express our appreciation for the strong support and cooperation

extended to OIG auditors and special agents by agency management and

personnel. 


                                          Sincerely,




                                          Martin J. Dickman
                                          Inspector General

Enclosure



844 N RUSH STREET CHICAGO IL 60611-2092                      Printed on recycled paper with soy ink
       T A B L E O F C O N T E N T S 




EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               3


OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    5

Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             6

Audits: Management Decisions and Implementation . . . . . . . . . . . . . .                                 17


OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   18

Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           19

Investigative Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         20

Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               22

Affirmative Civil Enforcement Program . . . . . . . . . . . . . . . . . . . . . . . . .                     29

Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     30


LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . .                                       31


APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              32

(B) OIG Reports with Recommendations that Questioned Costs and

     Recommendations that Funds Be Put To Better Use . . . . . . . . . .                                    33

(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . .                                35

(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    36

(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . . .                           41

                                                    Semiannual Report to the Congress



E X E C U T I V E S U M M A R Y
                              Y



  This semiannual report summarizes the activities and accomplishments of the
  Office of Inspector General (OIG) for the period April 1, 2004 through
  September 30, 2004.

                              Audit Activities

  During this six month reporting period, the Office of Audit completed four reviews
  concerning the Railroad Retirement Board’s (RRB) information system activities.
  Auditors performed the Fiscal Year (FY) 2004 evaluation of information system
  security, as required by the Federal Information Security Management Act of 2002.
  Agency management has continued to strengthen information security. However,
  because significant deficiencies in access controls and program management
  continue to exist, information security remains an area of material weakness in
  internal control. (A summary of auditor findings can be found on page 6.) Three
  reviews of mainframe access and controls were also completed.

  Auditors also conducted reviews related to the agency’s financial statements,
  document imaging, accounts receivable established under the Railroad
  Unemployment Insurance Act, spouse annuity deductions, and the agency’s
  purchase card program.



                     Investigative Accomplishments

  During the past six months, the Office of Investigations (OI) achieved 18
  convictions, 16 indictments and informations, and $21,344,037 in recoveries,
  restitutions, fines, civil damages, and penalties.

  On August 11, 2004, a significant case involving commercial contract fraud was
  completed. OI had initiated an investigation based upon a request from the U.S.
  Attorney for the Southern District of New York who had received a qui tam
  complaint. Special agents determined that three major health care insurance

                                       1
April 1, 2004 - September 30, 2004



       companies had falsified reports to the Centers for Medicare and Medicaid Services
       (CMS).

       Under settlement agreements, the United Healthcare Insurance Company and The
       Travelers Insurance Group were ordered to pay $9.7 million and $10.9 million,
       respectively, to CMS. Of the total settlement amount, $4,424,021 is associated
       with the RRB’s contracts with the two companies.




     All reports are available on our website: http://www.rrb.gov/oig/Rrboig.htm




                                           2
                                                     Semiannual Report to the Congress



I N T R O D U C T I O N 



                      Railroad Retirement Board

   The Railroad Retirement Board (RRB) is an independent agency in the executive
   branch of the Federal government that is headed by a three member Board
   appointed by the President of the United States, with the advice and consent of the
   Senate. One member is appointed upon the recommendation of railroad
   employers, one is appointed upon the recommendation of railroad labor
   organizations, and the third, who is the Chairman, is appointed to represent the
   public interest.

   The agency administers comprehensive retirement-survivor and unemployment-
   sickness insurance benefit programs for the nation's railroad workers and their
   families under the Railroad Retirement and Railroad Unemployment Insurance
   Acts. The RRB also has administrative responsibilities under the Social Security
   Act for certain benefit payments and Medicare coverage for railroad workers.

   During FY 2003, the RRB paid $8.9 billion in retirement and survivor benefits to
   approximately 666,000 beneficiaries, while net unemployment and sickness
   insurance benefits of $94 million were paid to almost 37,000 claimants. The RRB
   also administers its own Medicare Part B program through a single carrier,
   Palmetto GBA. The carrier made payments totaling $845 million to provide
   medical insurance benefits for 568,000 beneficiaries.




                                        3
April 1, 2004 - September 30, 2004



                            Office of Inspector General

       The Office of Inspector General (OIG) has the responsibility for promoting
       economy, efficiency and effectiveness in the programs of the Railroad Retirement
       Board. The office is also charged with the detection, prevention and elimination of
       fraud, waste and abuse in agency operations. To accomplish its mission, the OIG
       conducts audits, management reviews and investigations.

       The Railroad Retirement Solvency Act of 1983 established the Office of Inspector
       General at the Railroad Retirement Board by naming the agency as “one of such
       establishments” identified under Section 2 of the Inspector General Act of 1978.
       The Inspector General Act Amendments of 1988 added the RRB to the list of
       agencies covered by the Inspector General Act.

       In FY 2004, the OIG had 53 employees assigned to three operational components:
       the immediate office of the Inspector General, the Office of Audit, and the Office of
       Investigations. The office conducts operations from two locations: the
       headquarters of the Railroad Retirement Board in Chicago, Illinois, and an
       investigative field office in Philadelphia, Pennsylvania.




                                             4
                                                      Semiannual Report to the Congress



O F F I C E                O F           A U D I T 



   The Office of Audit (OA) conducts audits and reviews to promote economy,
   efficiency, and effectiveness in the administration of RRB programs, and to detect
   and prevent waste, fraud, and abuse in such programs. Through the Inspector
   General, the office ensures that the Board Members and Congress are informed of
   current and potential problems in the RRB’s programs and operations, and advised
   of recommended improvements, as well as the status of corrective actions. OA
   examines programmatic, financial, and administrative aspects of RRB operations.

   During this semiannual reporting period, OA performed the FY 2004 evaluation of
   the RRB’s information system security program. Auditors also conducted reviews
   of mainframe access and controls at the application level for in-house developed
   applications and two mainframe applications, the Federal Financial System and
   the Program Accounts Receivable System.

   Auditors completed two reviews related to the annual audit of the agency’s
   financial statements and issued findings on potential improvements to the
   agency’s Performance and Accountability Report and RRB compliance with law
   governing the compensation of Federal civilian employment. Other audits
   examined the Railroad Retirement Act document imaging process, accounts
   receivable established under the Railroad Unemployment Insurance Act, spouse
   annuity work deductions and the agency’s purchase card program.

   Discussion of these reviews and the resulting findings follow.




                                        5
April 1, 2004 - September 30, 2004



Fiscal Year 2004 Evaluation of Information Security

       OIG auditors conducted the annual evaluation of information security at the RRB
       and assessed the effectiveness of the agency’s information system security
       program and practices during FY 2004. The provisions of the Federal Information
       Security Management Act of 2002 (FISMA) require annual agency program
       reviews, Inspector General security evaluations, annual agency reports to the
       Office of Management and Budget (OMB), and annual OMB reports to the
       Congress. The RRB and OIG forwarded their reports to OMB on October 6, 2004.

       Previous OIG evaluations disclosed weaknesses throughout the agency’s
       information security program. Auditors cited material weaknesses due to
       deficiencies in access controls in mainframe and end-user computing
       environments and training provided to staff with security responsibilities. During
       the first six months of FY 2004, a total of 132 recommendations required corrective
       action. As of March 31, 2004, 84 items were fully implemented, 11 were rejected,
       and 37 were pending further agency action.

       During the current review, auditors determined that the RRB had not established
       adequate controls to ensure that CA-ACF2 settings, an access control software
       package that controls initial access to the RRB’s mainframe computer, implement
       management’s policies. In addition, the agency’s Bureau of Information Services
       (BIS) has not: (1) established a policy for removal of individual or generic inactive
       accounts from the system, (2) implemented recent enhancements to the global
       system options, (3) established settings required for compliance with Internal
       Revenue Service’s information security requirements, and (4) implemented
       policies to ensure documentation is maintained for granting, modifying or reviewing
       special privileges that enable users to perform high risk activities within the
       system.

       Auditors recommended that BIS establish policies concerning the inactive status of
       individual and generic accounts, and the periodic review of such accounts.
       Recommendations were also made for establishing a password expiration
       requirement for generic accounts, reviewing global system settings, implementing
       an annual review of all special privileges and maintaining documentation to
       support changes to these privileges, and requiring review of logs that record
       changes made by system administrators. Management concurred with the


                                             6
                                                  Semiannual Report to the Congress



findings and plans to implement the recommended corrective action or an
appropriate alternative.

OMB issued guidance for the annual reviews required by FISMA. At a minimum,
the National Institute of Standards and Technology (NIST) self-assessment tool or
an equivalent should be used to evaluate risk and the comprehensiveness of last
year’s review. Auditors determined that security self-assessments were not
performed during FY 2004 for the nine RRB systems that contain sensitive
information. In their FY 2002 evaluation, auditors recommended BIS take action to
ensure the agency’s self-assessment process was complete, credible and
comprehensive with respect to the NIST objectives and provided a basis for
assessing changes in security status from year to year. Although the RRB
subsequently implemented the NIST self-assessment methodology in FY 2003,
program officials have not completed recommended corrective actions.

Auditors also recommended that the agency update the computer security plan for
a major application, the electronic payment of RUIA benefits, to ensure
completeness. The current plan was evaluated in March 2004 but did not include
consideration of a web-based, public access component system that went into
production later in that month. Management agreed with the recommendation and
will incorporate references to the new system as appropriate.

Finally, auditors reported that the formal acceptance of systems development
projects does not require the signature of a senior agency official with budget
authority. In FY 2003, the OIG recommended that the agency implement a formal
certification and accreditation process to place acceptance of system security with
a higher level of management. At that time, the RRB rejected the recommendation
because NIST guidance requiring such a process had not yet been finalized. NIST
now requires authorization of information systems to be given by a senior
management official. Accordingly, auditors recommended that BIS implement a
NIST compliant certification and accreditation program. Management concurred
and will modify and/or develop system acceptance and authorization procedures
for new systems and major system modifications.




                                     7
April 1, 2004 - September 30, 2004



                  Review of Mainframe Access Controls

       During this semiannual period, auditors conducted reviews of access controls for
       in-house developed applications controlled by commercial access control software
       products, and two major mainframe applications, the Federal Financial System,
       and the Program Accounts Receivable System. Access controls limit or detect
       access to computer resources and protect against unauthorized change, loss or
       disclosure. Previous OIG security evaluations cited the agency for material
       weaknesses resulting from access control deficiencies in mainframe and end-user
       computing environments, as well as in the training provided to staff with significant
       security responsibilities.


RRB-Developed Applications Controlled by ACF2 and IDMS

       The RRB uses ACF2, an access control software package, and IDMS, a database
       management system, to control access to in-house developed applications.
       Although current agency policy requires periodic re-authorization reviews to
       identify changes in user needs, testing disclosed that existing controls do not limit
       system users to those privileges required for the performance of their current
       duties. In addition, there is not adequate segregation of duties among users of
       these applications; many system analysts have access to development, test and
       production environments. The audit also identified former systems administrators
       for two RRB automated systems retained access privileges no longer required.

       Auditors recommended that the Chief Information Officer (CIO) (1) implement a
       quality assurance program to ensure an effective re-authorization process; (2)
       review the system accesses of systems analysts who have been granted access
       to all three systems development environments and take action to appropriately
       restrict system privileges; and (3) revoke the administrator level privileges of
       former administrators. The CIO concurred with the findings and initiated action for
       items (1) and (3). However, the CIO reported that the type of access provided to
       user analysts was reviewed and validated based on current job functions. Access
       for programmer analysts was also reviewed and appropriate changes made. The
       CIO stated that any additional action at this time would be disruptive and cause
       delays.




                                             8
                                                        Semiannual Report to the Congress



Federal Financial System (FFS)

    FFS is a mainframe application that supports financial management and reporting
    including control of the agency’s budget, procurement and preparation of the
    interim and annual financial reports. As of December 2003, approximately 500 of
    the RRB’s 1,100 employees had access to FFS.

    The Bureau of Fiscal Operations, the system owner, is responsible for ensuring
    that re-authorization reviews are scheduled and completed. Auditors reported that
    no such review has been performed since 1999. They also determined that high
    level executives have system privileges for tasks typically performed by
    subordinates.

    Auditors recommended the implementation of a quality assurance program for the
    FFS re-authorization program, and the performance of a review of security-related
    transactions to determine which actions should be logged and who should be
    responsible for receipt and review of the logs. The CIO agreed and initiated
    corrective action. Auditors also recommended that the Bureau of Fiscal
    Operations review pre-defined security profiles and ensure transaction processing
    meets management control objectives. The CFO concurred and has established a
    target date of December 31, 2004 for implementation of corrective actions.


Program Accounts Receivable System (PARS)

    PARS supports debt recovery management and reporting for the RRA and RUIA
    programs. The Bureau of Fiscal Operations is the owner of record for the system
    and maintains the security settings, including access privileges of new and existing
    users. The system is used extensively by the RRB’s Office of Programs’
    personnel who have responsibility for debt recognition and coordination of debt
    recovery and benefit payments.

    Auditors determined that the re-authorization review of PARS performed in FY
    2004 did not include sufficient detail about specific privileges granted to individual
    employees. The information about staff privileges included only the name of a pre-
    defined security profile, not the privileges associated with it. The auditors
    recommended that the CIO implement a quality assurance program and determine
    which security-related transactions should be logged and who should be

                                          9
April 1, 2004 - September 30, 2004



       responsible for receipt and review of the logs. The CIO agreed and initiated
       corrective action.

       Auditors reviewed PARS transactions and observed that like transactions do not
       always require like approvals. They recommended that the CFO coordinate a
       review of the PARS core security settings to ensure the configuration of document
       approvals and the delegation of approval privileges reflect management’s
       directives for transaction processing. The CFO agreed and established a target
       completion date of December 31, 2004.


Opportunities to Improve the RRB’s Performance and
Accountability Report

       The Accountability of Tax Dollars Act of 2002 requires that the RRB prepare an
       annual performance and accountability report that presents the agency’s audited
       financial statements and other financial, performance and management
       information. These financial reporting requirements were previously mandated for
       major agencies by the Chief Financial Officers Act of 1990, and are now required
       of most Federal agencies.

       In 1986, the RRB initiated the preparation of financial statements for internal use
       only, and, in 1994, the agency began publishing audited statements. In 2003, the
       agency elected to implement the new format for the Performance and
       Accountability Report for FY 2003, although legislated changes were not required
       until the presentation for FY 2004. The revised format for submission of audited
       financial statements requires additional information; the form, content and
       preparation process for this data will impact the timing and nature of the audit tests
       that support the auditor’s opinion.

       OIG auditors reviewed the RRB’s FY 2003 presentation to identify ways in which
       the agency could eliminate redundancy, limit the presentation to required
       information only, and ensure compliance with all applicable guidelines.
       Recommendations were made to streamline the presentation for FY 2004 by:

       ! Limiting notes to the financial statements to those required by applicable
       guidance and provide detailed documentation for each note;


                                             10
                                                      Semiannual Report to the Congress



    ! Developing a concise presentation;

    ! Requesting program bureaus to accelerate submission of performance

    information; and

    ! Reviewing specific sections of the report to eliminate duplication.


    Management agreed with the OIG comments and will implement all the

    recommendations contained in the report.



Compliance with Selected Laws Governing Federal Civilian
Employment

    Office of Management and Budget Bulletin 01-02, “Audit Requirements for Federal
    Financial Statements,” requires the OIG, as part of its annual audit of the RRB’s
    financial statements, to perform tests of compliance with certain provisions of law
    governing compensation of Federal civilian employees. As a result of this review,
    auditors reported that the RRB complies with the laws governing Federal civilian
    employment, has implemented the General Schedule, makes prevailing rate
    determinations, uses wage schedules and pays night differentials as mandated by
    U.S.C. Title 5. The agency is generally in conformance with established
    requirements for attendance and leave, insurance annuities and employee
    performance.

    However, auditors did state that internal controls are inadequate to ensure payroll
    transactions have been accurately processed in accordance with established
    procedures and are supported by a complete audit trail. Agency procedure
    mandates that each daily time sheet be signed by both the individual who prepared
    it and a supervisor prior to input into the payroll processing system. In a randomly
    selected sample of 113 employee payroll transactions, auditors identified 17 cases
    in which one of the two signatures was missing. Tests also disclosed 17 instances
    in which errors or inconsistencies indicated that the payroll was or may have been
    incorrect. Fifteen of the 17 exceptions questioned by auditors had been fully
    approved.

    Auditors recommended that management remind personnel of current procedure,
    update agency procedure to separate responsibility for data preparation and input,
    and implement an oversight process to disclose any non-conformance with agency
    procedure.

                                         11
April 1, 2004 - September 30, 2004




       Tests were also performed of personnel folders to confirm that the salary and
       benefit information used to compute the payroll was correct. No documentation
       was included in the files of five employees to support insurance elections or to
       explain a discrepancy in the service compensation date of one employee. When
       informed of the missing documentation, the Bureau of Human Resources
       corrected the six files.

       On June 13, 2004, the RRB migrated to the General Service Administration’s E-
       Payroll system. Current agency wide payroll guidance is being evaluated to
       determine to what extent it needs to be modified. Agency management will
       address the findings and recommendations of this report in the revised guidance.


RRB’s Railroad Retirement Act Document Imaging Process:
Reliability of Images From Scanned Paper Documents

       In FY 1999, the OIG initiated audits of the development and implementation of the
       agency’s document imaging system. This system, scheduled for full
       implementation in FY 2004, permits greater accessibility to documentary evidence
       to support claims adjudication and benefit payments under the Railroad Retirement
       Act (RRA) and the Railroad Unemployment and Sickness Insurance Act (RUIA).
       Although the processes for both programs are separate, they share similar
       procedures and controls, and the same agency personnel process documents for
       the two programs.

       Auditors focused this review on the electronic images created through the
       scanning of RRA documents. They reviewed 300 documents that were scanned
       from October 2002 through June 2003 to determine if (1) original paper documents
       were retained in accordance with applicable laws and regulations; and (2) the
       electronic images were complete and legible reproductions.

       Review results indicated that program controls are adequate to ensure images are
       properly indexed to permit future retrieval. However, auditors determined that the
       agency had not properly implemented quality control procedures for the proper
       retention, completeness and legibility of the documents. For example, paper input
       documents were incorrectly filed - long-term paper documents were attached to



                                           12
                                                       Semiannual Report to the Congress


    short-term retention batches. Current control weaknesses have resulted from
    insufficient staff training and the lack of quality assurance reviews.

    Auditors recommended that the Office of Programs, the office responsible for the
    imaging system, provide additional training to imaging system staff, perform and
    document required quality assurance reviews. Official agency procedures must
    also be updated. Management concurred with all OIG findings and has initiated
    corrective action.



Review of Accounts Receivable Established Under the
Railroad Unemployment Insurance Act (RUIA)

    The RRB administers the RUIA that provides unemployment and sickness
    insurance benefits to railroad workers. During FY 2003, the agency paid $94.1
    million to 15,000 individuals who qualified for unemployment benefits, and to
    23,000 individuals who qualified for sickness benefits. In that same year, the RRB
    established new receivables owed to the program of approximately $39 million.

    The major cause of overpayments in the program is settlement of injury claims
    against railroad employers and concurrent entitlement to retirement or disability
    benefits under the Railroad Retirement Act. Such settlement may include
    retroactive compensation for time during which a railroad worker had previously
    received sickness insurance benefits under the RUIA. Since workers may not
    receive payments under the RUIA for any days in which they have received
    compensation from a railroad, an overpayment results.

    OIG auditors conducted this review to assess the adequacy of the RRB processes
    for establishing and managing RUIA debts and related transactions. They
    determined that current procedures do not ensure the timely posting of RUIA
    program debt recoveries to accounts receivable when a cash recovery is received
    prior to establishment of a debt record on the agency’s automated accounts
    receivable system. During FY 2003, approximately $10 million was held as
    unapplied cash for more than 14 days pending processing against a system
    receivable, an increase from the approximate $8 million in FY 2002. Auditors
    recommended that program management implement changes to accelerate the
    posting of cash receipts and the processing of unapplied cash.

                                         13
April 1, 2004 - September 30, 2004




       In addition, current control weaknesses have resulted in inconsistent accounting
       for debt recovery transactions; untimely and inaccurate handling of payments
       received in excess of outstanding debt, and unreported injury settlements. Batch
       processing operations result in delays in posting recoveries, and the use of dates
       that do not reflect the actual date on which recovery occurred. Auditors also noted
       that the combination of manual and automated processing systems increases the
       risk of delays and undetected errors. Recommendations were made for the review
       of systems and procedures to identify improvements to reduce errors, improve
       timeliness and strengthen the audit trail of transactions.

       Finally, auditors determined that program personnel had not contacted railroad
       employers to inquire about the status of injury claims associated with outstanding
       lien notices for approximately four years. As of April 2004, approximately 6,400
       liens had been pending for more than three years. The Office of Programs
       subsequently initiated the review for the years since 2000 for cases in which the
       final lien amounts have been computed.

       Program officials agreed to review the feasibility of system and procedural
       changes recommended by the OIG auditors.


Review of Spouse Annuity Work Deductions

       Based on a referral by the OIG’s Office of Investigations, auditors conducted this
       audit to determine if the RRB has adequate controls to ensure that work
       deductions are applied to spouse annuities paid under the Railroad Retirement Act
       (RRA). The review was limited to spouse annuities of individuals under age 65 in
       current pay status as of May 2004. Retirement benefits are payable to the
       spouses of retired railroad employees as early as age 60. Spouses who have not
       reached age 60 may also receive benefits if they have minor or disabled children
       in their care. In FY 2003, the agency awarded about 8,700 spouse annuities with
       total payments of approximately $1 billion.

       Spouse annuitants are subject to work deductions on the same basis as other
       beneficiaries under the RRA. The RRB monitors the wage histories of
       beneficiaries to identify undisclosed income through the receipt of wage
       information from the Social Security Administration. During FY 2000, the RRB


                                            14
                                                      Semiannual Report to the Congress


    modified the automated work deduction monitoring process. However, due to
    insufficient testing prior to implementation, the program did not include spouses
    under age 60 with children in its review. Auditors reviewed a sample of 260
    spouse annuitants in this category and identified 17 cases in which an annuitant
    had post-retirement earnings but no reduction in RRA benefits. They estimate that
    a similar review of the current population would identify 68 overpayments valued at
    $400,000.

    As a result of the OIG’s findings, the agency’s Office of Programs implemented
    programming changes in July 2004 to include the spouse annuitants under age 60
    with children in their care. Auditors recommended that program officials perform a
    review to identify additional cases that should have been monitored for prior
    earnings. Program management concurred with the recommendation and will
    develop an action plan by March 2005.


Review of the Purchase Card Program

    The General Services Administration initiated a government-wide credit card
    program to streamline the Federal procurement process by permitting employees
    to use a credit card to purchase low-cost goods and services. At the RRB,
    approximately nine per cent of agency staff has the credit card that may be used
    for individual purchases that do not exceed $25,000. RRB cardholders spent
    approximately $422,000 in FY 2002 and $453,000 in FY 2003.

    Recent Congressional testimony and Government Accountability Office reports
    have revealed that some Federal agencies do not have adequate internal controls
    over their purchase card programs. The OIG conducted this review to evaluate
    such controls in the RRB’s program. Although auditors did not identify any
    instances of fraudulent, wasteful or abusive purchases, they did recommend that
    agency management strengthen operational and management controls in the
    program. Implementation of additional measures will reduce the vulnerability of
    the agency’s purchase card program to improper spending.

    Review findings indicated that the RRB does not conduct periodic reviews to
    determine if existing cardholders need a purchase card at a specified limit nor
    does the agency adequately control the cancellation process for a purchase card
    when an employee separates from the agency. Auditors also determined that the


                                        15
April 1, 2004 - September 30, 2004


       agency does not have complete and sufficient documentation to indicate that
       current cardholders are properly authorized to use their purchase cards. In
       addition, the agency has not taken sufficient steps to restrict the usage of the card
       to approved vendors or approved categories of purchase.

       Auditors recommended that the agency provide clear guidance to purchase card
       holders, update procedures and important documents relating to the program,
       improve controls over the program, and provide refresher training to emphasize
       the importance of controls over card purchases. Management concurred with the
       report findings and plans to complete all corrective actions by January 2005.




                                             16
                                                 Semiannual Report to the Congress



     AUDITS: MANAGEMENT DECISIONS AND
              IMPLEMENTATION

The Office of Inspector General maintains the open audit follow-up system to track
the status of corrective actions for all audit recommendations. Office of
Management and Budget Circular No. A-50 (Revised) and the Inspector General
Act Amendments of 1988 require the reporting of management decisions and
corrective actions for all audit recommendations.



Management Decisions for Recommendations

Requiring a management decision on April 1, 2004                                 0

Pending management decisions for new recommendations                             0

Management decisions for previous recommendations                                0

Recommendations pending a management decision
  on September 30, 2004                                                          0

Corrective Actions

Recommendations requiring action on April 1, 2004                               72

Recommendations issued during this period                                       58

Corrective actions completed during the period                                  33

Final actions pending on September 30, 2004                                     97




                                    17
April 1, 2004 - September 30, 2004



O F F I C E O F
I N V E S T I G A T I O N S


       The Office of Investigations (OI) focuses on RRB benefit program fraud. OI's
       primary objective is to identify and investigate cases of waste, fraud and abuse in
       RRB programs and refer them for prosecution and monetary recovery action.
       Through its investigations, OI also seeks to prevent and/or deter program fraud. In
       order to maximize the effect of its resources, OI continues to pursue cooperative
       investigative activities and coordination with other Inspectors General and law
       enforcement agencies, which include the Social Security Administration-Office of
       Inspector General, the Office of Personnel Management-Office of Inspector
       General, the Federal Bureau of Investigation (FBI), the U.S. Secret Service, the
       Internal Revenue Service, and the Postal Inspection Service.


Commercial Contract Fraud

       A major case involving commercial contract fraud was closed during this
       semiannual period. OI had initiated an investigation based upon a request from
       the U.S. Attorney for the Southern District of New York who had received a Qui
       Tam complaint. The allegation involved fraudulent activity by United HealthCare
       Corporation, the Metrahealth Insurance Company, and the Travelers Insurance
       Group, Inc. from October 1989 through December 1999 in connection with their
       contracts with the RRB and Centers for Medicare and Medicaid Services (CMS) to
       process Medicare claims. Investigation revealed that the companies submitted
       false reports concerning hours expended under the contracts to the CMS to
       conceal excessive expenditures for certain line items such as processing of
       Medicare claims submitted by physicians and other providers. They also reported
       erroneous information on the employee time devoted to program integrity and the
       detection of fraud. On August 11, 2004, under civil action, settlement agreements
       were reached with all parties. The United Healthcare Insurance Company and The
       Travelers Insurance Group were ordered to pay $9.7 million, and $10.9 million,
       respectively, to CMS. Of the total settlement amount, $4,424,021 is associated
       with the RRB’s contracts with the two companies.

                                           18
                                            Semiannual Report to the Congress




                                             04/01/04 -
INVESTIGATIVE ACCOMPLISHMENTS                09/30/04             FY 2004

Convictions                                            18                   42

Civil Judgements                                       20                   37

Indictments/Informations                               16                   32

Investigative Recoveries                    $     140,109     $     394,610

Restitutions and Fines                      $     223,473     $     672,031

Civil Damages and Penalties                 $ 20,980,455      $ 21,223,915

Potential Economic Loss Prevented (PELP)    $      61,813     $     251,658

Community Service Hours                             1,825             2,425

Disciplinary/Administrative Action                        1                  1

Civil Complaints                                          8                 21
Criminal Complaints                                       4                  4

Arrests                                                   3                  4

Subpoena Service:
 Inspector General                                     18               38
 Federal Grand Jury                                    60              216
 Trial                                                  0                0


U.S. Attorney Referrals                               130              261




                                      19

April 1, 2004 - September 30, 2004



INVESTIGATIVE CASES

        During this semiannual period, OI opened 117 investigations and closed 146
        cases. The major sources of case referrals are illustrated below.
                                            Computer Matches - 4%
           RRB Field Offices - 16%

                                                           OIG Developed - 11%




                                                              Hotline - 16%




      RRB Headquarters - 47%


                                                        Others - 6%




        OI's current caseload totals 528 criminal matters, representing approximately
        $11.3 million in fraud against the RRB.



                                                         Disability -206 cases
                                                             $4,788,000



                                                                      Sickness - 18 cases
  Unemployment - 115 cases                                                 $79,000
        $544,000

                                                                Spouse/Dependent - 34 cases
                                                                     $874,000

                                                               Representative Payee - 28 cases
                                                                     $148,000

                                                           Other - 19 cases
               Retirement - 108 cases                       $3,159,000
                    $1,706,000




                                            20
                                                      Semiannual Report to the Congress



DISTRIBUTION OF CASES

   The Office of Investigations (OI) conducts its investigations throughout the United
   States in response to complaints or allegations regarding violations of Federal law.


   The map below indicates the number of open investigations that OI currently has
   in each state; there are no open cases in Alaska or Hawaii. Two additional
   investigations are underway in Canada.




                                        21
April 1, 2004 - September 30, 2004



REPRESENTATIVE INVESTIGATIONS


                       Retirement Benefit Investigations

       RRB retirement fraud typically involves the theft and fraudulent cashing of U.S.
       Treasury checks, or the illicit conversion of U.S. Treasury electronic fund transfers,
       by someone other than the authorized RRB annuitant. During this reporting
       period, OI obtained seven convictions and four civil judgements for retirement
       fraud. Defendants received four months imprisonment, 10½ years probation, and
       were ordered to perform 1,575 hours of community service. They were also
       ordered to pay $86,018 in restitution, $400 in fines, $244,096 in damages and
       $1,796 in civil penalties. The RRB will recover an additional $77,563 in
       overpayments as a result of OIG investigations of retirement benefit programs.

       OI routinely receives referrals from the RRB’s Debt Recovery Division that involve
       the fraudulent negotiation of RRB retirement benefit checks, usually by a relative of
       a deceased annuitant.

       Examples of recent retirement cases follow.

       P	   OI initiated an investigation based on a referral by the RRB’s District Office in
            Philadelphia, PA following an attempt by its staff to deliver a congratulatory
            letter to an annuitant on the occasion of her 100th birthday. Special agents
            determined that the annuitant’s daughter had failed to notify the agency of her
            mother’s death in September 1994, and had negotiated 68 retirement annuity
            checks totaling $56,662.

            Due to her age (80 years) and medical condition, the daughter would not or
            could not completely cooperate with the investigation. Her son was advised of
            the issues and agreed that restitution should be made to the RRB. He also
            volunteered to act as an intermediary between the government and his mother
            for resolution of the matter.

            A consent judgment was signed by the daughter that charged her under the
            False Claims Act, 31 U.S.C. 3729, with the theft of the annuity. The judgment

                                             22
                                                     Semiannual Report to the Congress



     also provided for triple damages, resulting in a restitution amount of $169,986.
     Recovery of the funds will be realized upon the subject’s death and/or the
     future/eventual sale of her house.

P	   The RRB’s District Office in Chicago referred a case to OI that involved an
     RRB annuitant and his wife who allegedly received RRB dependent child
     benefits to which they were not entitled. The couple claimed they had a child
     under the age of 18 in their care. The RRB provides benefits to mothers who
     are providing care to underage children.

     In February 2003, the wife had contacted the RRB to set up an appointment to
     apply for dependent child benefits. She subsequently was arrested for
     delivery of a controlled substance, and she was sentenced to 18 months in
     prison. In April 2003, the husband and a woman posing as his wife (later
     identified as his sister-in-law) visited the RRB to apply for the spouse benefits.
     They signed the RRB application indicating they were married and presented
     the birth certificate of the child to the agency’s contact representative. The
     sister-in-law also provided a birth certificate as a piece of identification and
     proof that she was the wife.

     As a result of the falsified application, a total of $11,091 was fraudulently
     received by the couple. When OI special agents interviewed the man, he
     admitted that he had paid $100 to his sister-in-law to apply for spouse
     benefits. She subsequently confirmed this fact. Agents then interviewed the
     wife in prison who stated that the child had, in fact, lived her entire life with a
     relative and currently had a different name. She also stated that her husband
     had arranged for her to apply for the RRB benefits before she went to prison,
     even though she was not providing care for the child and knew such action
     was illegal.

     On April 14, 2004, the husband was indicted by a Federal Grand Jury charging
     him with violating Title 18, U.S.C. §641, Theft of Government Funds in the
     Northern District of Illinois. On June 15, he entered into a deferred
     prosecution agreement with the U.S. Attorney’s Office, admitting that he
     violated the cited law and repaid the funds to the RRB that he had fraudulently
     received. The deferred prosecution requires him to report regularly to a
     Federal pre-trial services officer for 12 months. The sister-in-law entered into


                                       23
April 1, 2004 - September 30, 2004



            a Pre-Trial Diversion and is also required to report regularly to a Federal pre-
            trial services officer for 18 months and complete 75 hours of community
            service. The U.S. Attorney’s Office declined prosecution of the wife.

       P	   OI opened another investigation as the result of a Social Security computer
            wage match that compared social security reported wages and railroad
            retirement benefits. The match identified an annuitant who was earning
            wages in excess of the retirement limitation. Investigation revealed that the
            subject failed to report his employment with the Summit County, Ohio sheriff’s
            office from 1991 to March 2002 when he initially filed for RRB retirement
            benefits in May 2000. The RRB established his annuity beginning date
            retroactive to February 2000. The subject returned to work and had excess
            earnings as a support service administrator in calendar years 2001, 2002, and
            2003. During this period, the subject had earnings totaling $142,860. When
            interviewed by OI special agents, he admitted he had failed to supply his
            employment information because his earnings would reduce his RRB benefits.

            On August 2, 2004, a Federal information was filed in U.S. District Court for
            the Northern District of Ohio, charging the annuitant with Title 45, §231(l),
            Failure to report information to the RRB. He entered a plea of guilty and was
            ordered to pay restitution of $28,418 to the RRB and a special assessment
            fine of $25 to the Clerk of the Court. On September 10, 2004, the RRB
            received the full restitution.

       P	   OI initiated another investigation based on a complaint from an official at a
            nursing home in California who contacted the RRB’s West Covina, CA District
            Office. The official stated that a daughter and representative payee for one of
            the facility’s residents refused to visit her mother and had not paid the nursing
            home bill.

            OI special agents determined that the daughter had been appointed as the
            representative payee for her mother in March 2001, and was required to use
            annuity funds to pay her mother’s obligations including the nursing home
            expenses. From March 2001 through January 2002, the daughter received
            $41,952 in RRB and Social Security Administration benefits which included an
            accrual check for $24,251.




                                             24
                                                    Semiannual Report to the Congress



    The daughter told special agents that she had used her mother’s annuity
    funds to replenish her children’s college funds that she had used to take care
    of her mother. She admitted she had not paid her mother’s bills or provided
    her with any money or goods. She claimed an official from the RRB district
    office had informed her that she could use the funds to repay herself. The
    district office official told the agents that she had informed the daughter that all
    annuity funds must be used for the direct care of her mother.

    The daughter was indicted by a Federal Grand Jury for violation of Title 18,
    §641, Theft of Government Funds. She pleaded guilty and was sentenced to
    three years probation and ordered to perform 1500 hours of community
    service. She was also ordered to pay restitution of $24,202 to the RRB and a
    special assessment of $100. Upon receipt, the RRB will forward the funds to
    the mother’s nursing home.



Unemployment and Sickness Insurance Investigations

Unemployment Insurance (UI) and Sickness Insurance (SI) benefit fraud involves
individuals claiming and receiving UI or SI benefits while working and receiving
wages from an employer, in violation of Federal law. OI receives the majority of
these cases for followup investigation from the RRB’s Disability, Sickness and
Unemployment Benefits Division as a result of information developed from state
wage matching programs. These programs match RRB annuitants with individuals
who earned compensation in each state.

During this reporting period, OI obtained eight convictions and 14 civil judgements
for UI and SI fraud. Defendants in these cases received, in the aggregate, three
years imprisonment, 9 years probation, one year suspended sentence and were
ordered to perform 50 hours of community service. They were ordered to pay
$37,130 in restitution, $93,595 in damages, $785 in fines, and $30,967 in civil
penalties. The RRB will also be able to recover an additional $47,357 as a result
of OI investigations.

Examples of cases completed this reporting period follow.




                                      25
April 1, 2004 - September 30, 2004



       P	   A state wage computer match with the State of Wyoming identified an
            annuitant who had received wages while claiming RRB unemployment
            insurance benefits. The subject had filed ten false claims with the RRB’s Salt
            Lake City District Office, and received $4,784 in unemployment benefits to
            which he was not entitled. He was employed at a counseling service in Rock
            Springs, Wyoming.

            The U.S. District Court in Cheyenne filed a default judgement against the
            annuitant ordering him to pay $20,918. This amount included treble damages
            of the original fraud of $4,784 ($14,352), an administrative penalty of $416, a
            court penalty of $6,000, and court costs totaling $150. Of this amount, the
            RRB will receive $5,200.

       P	   A wage match with the State of Kansas resulted in a referral to OI concerning
            an annuitant who was receiving UI benefits and also had wages reported to
            the state during the same time period. OI investigation revealed that the
            annuitant had filed 20 false claims, resulting in the fraudulent receipt of $9,242
            while he was employed at the University of Kansas Medical Center in Kansas
            City.

            The U.S. Attorney’s Office filed a civil complaint against the subject for his
            fraudulent actions. The U.S. District Court subsequently filed a settlement
            agreement and judgement against him ordering payment of $11,390 (single
            damages of $9,242 plus a penalty of $2,000 and a filing fee of $150). The
            RRB will receive the original overpayment amount of $9,242.

       P	   The RRB’s Disability, Sickness and Unemployment Benefits Division referred
            another case to OI as the result of a wage match with the State of Illinois. The
            subsequent investigation identified a substitute school teacher in the Chicago
            Public Schools who had filed ten false claims totaling $3,744. He had falsely
            certified that he did not work on the days for which he claimed benefits. He
            U.S. District Court ordered him to pay $7,488 (single damages of $3,744
            doubled to $7,488). The RRB will receive the original overpayment amount
            and associated interest. The annuitant is making monthly payments of $225.




                                             26
                                                    Semiannual Report to the Congress



                      Disability Investigations

The OIG also conducts fraud investigations relating to the RRB's disability
program, which typically involves larger financial amounts and more sophisticated
schemes. An individual who receives a disability annuity is restricted to earning
not more than $400 in one month. An earnings cap of $4,999 per year also
applies. Disability annuitants must report all work activity to the RRB.

During this reporting period, OI obtained one civil judgement for disability fraud.
The defendant in this case was sentenced to 1½ years probation, and ordered to
perform 100 hours of community service. In addition, he was ordered to pay
$78,966 in restitution. A description of the case follows.



#	   The RRB’s Debt Recovery Division referred a case involving an RRB
     occupational disability annuitant who also concealed and failed to report his
     employment and earnings in order to continue his disability benefits. The
     annuitant reported wages of approximately $3,000 for six months in 1997. In
     November 2000, he reported he also worked as a receiving manager in 1998-
     2000, and as a dockworker for six months in 1999.

     OI investigation revealed the annuitant’s earnings had exceeded the monthly
     and annual earnings limitation amounts during calendar years 1997-2001. As
     a result, the RRB had overpaid him a total of $78,966 from January 1997
     through September 2001. In November 2001, the RRB suspended his
     disability annuity.

     During an interview with OI special agents, the annuitant admitted that he had
     concealed his wages from the RRB. On June 22, 2004, he entered into a pre-
     trial diversion agreement with the U.S. Attorney’s Office in the eastern district
     of Arkansas, and agreed to repay the total overpayment. He was also placed
     on supervision for 18 months and ordered to perform 100 hours of community
     service.




                                      27
April 1, 2004 - September 30, 2004



                                Employee Misconduct

       OI also has responsibility for ensuring agency integrity by investigating alleged
       misconduct by RRB employees.

       P	   During this reporting period, special agents initiated an investigation based on
            a referral from the agency’s Office of Human Resources. OI agents
            determined that a field service employee had taken action to mislead the
            Borough of Carteret, NJ Housing Authority. She fraudulently altered her RRB
            payroll statements and forged other agency employee signatures on
            supporting documentation to reduce her annual income. Her intent was to
            reduce the amount of her subsidized housing payments.

            The falsification of the documents resulted in the Housing Authority
            fraudulently receiving over $10,000 in Department of Housing and
            Development (HUD) subsidized housing funds for the employee.

            In September 2003, a criminal complaint was completed and filed against the
            employee by the HUD-OIG with the assistance of OI and the U.S. Attorney’s
            Office in Newark, NJ. On August 13, 2004, the employee signed a pre-trial
            diversion agreement which deferred prosecution and required her to make
            restitution of $10,000 to HUD. She also submitted her resignation to the RRB.




                                            28
                                                       Semiannual Report to the Congress



AFFIRMATIVE CIVIL ENFORCEMENT (ACE) PROGRAM

  OI continues to pursue prosecution of cases under the Department of Justice's
  Affirmative Civil Enforcement Program. This program involves "fast track" civil
  prosecution of cases under the provisions of the Title 31, U. S. Code, Sections
  3729-3733, The Civil False Claims Act. This statute allows the government to
  recover up to triple damages as well as $5,000 to $10,000 for each false claim
  submitted.

  The Department of Justice frequently obtains double damages through these civil
  false claims prosecutions. The judgements obtained in these cases also provide
  the agency with an efficient and effective basis to pursue their collection activities.

  The ACE Program continues to provide an efficient means to address fraud
  against agency programs, particularly where the fraud losses are below the
  financial guidelines for criminal prosecution. It also is an effective way to return
  fraud losses to the RRB's trust funds and create a deterrent against future fraud.

  During this reporting period, ten civil judgements under the ACE program were
  entered by Federal district courts which will result in the return of $228,635 to the
  government when the funds are collected.




                                        29
April 1, 2004 - September 30, 2004



                                     HOTLINE CALLS


       The Office of Inspector General established its Hotline to receive complaints
       concerning suspected fraud, waste and abuse in RRB programs and operations.
       The Hotline provides an open line of communication for individuals to report
       suspected criminal activity, conflict of interest, mismanagement, and waste of RRB
       funds.



                                                                              04/01/04 -
                                                                              09/30/04
       Total Contacts: (Telephone Calls and Letters)                               585 



       Referred to: RRB-OIG, Office of Investigations                               26 



       RRB Bureaus/Offices                                                         285 



       Other Federal Agencies                                                       19 



       RRB Medicare Carrier/Durable Medical Equipment

       Regional Carriers
                                                            2


       Other (misdirected calls, follow-up calls to agents,

       etc.)                                                                       231 

       Calls for which there was insufficient information to

       substantiate an allegation or to make a referral                             22 





                                             30
                                                     Semiannual Report to the Congress




L E G I S L A T I                  V    E &
R E G U L A T O                    R    Y R E V I E W

   The Inspector General Act requires the Inspector General to review existing and
   proposed legislation and regulations relating to the programs and operations of the
   agency, and to make recommendations in the semiannual report concerning the
   impact on the economy and efficiency of the agency’s administration of its
   programs and on the prevention of fraud and abuse.

   During this reporting period, the agency finalized its regulation concerning the
   electronic filing of applications and claims for benefits under the Railroad
   Unemployment Insurance Act. The OIG previously advised the agency that the
   proposed regulation contained an unclear description of the application process.
   The final regulations clarified the application process.




                                       31
April 1, 2004 - September 30, 2004



A P P E N D I X A
                A


                                REPORTS ISSUED


       P	   RRB’s Railroad Retirement Act Document Imaging Process: Reliability of
            Images from Scanned Paper Documents, May 12, 2004

       P	   Management Information Report - Opportunities to Improve the RRB’s
            Performance and Accountability Report, May 17, 2004

       P	   Review of the Purchase Card Program at the Railroad Retirement Board,
            June 21, 2004

       P	   Compliance with Selected Laws Governing Federal Civilian Employment at
            the RRB, June 23, 2004

       P	   Review of Accounts Receivable Established Under the Railroad
            Unemployment Insurance Act, July 29, 2004

       P	   Review of Mainframe Access Controls at the Application Level - Federal
            Financial System, September 7, 2004

       P	   Review of Mainframe Access Controls at the Application Level - RRB-
            Developed Applications Controlled by ACF2 and IDMS, September 7, 2004

       P	   Review of Mainframe Access Controls at the Application Level - Programs
            Accounts Receivable System, September 9, 2004

       P	   Review of Spouse Annuity Work Deductions at the Railroad Retirement
            Board, September 30, 2004

       P	   Fiscal Year 2004 Evaluation of Information Security at the Railroad
            Retirement Board, September 30, 2004




                                            32
                                                     Semiannual Report to the Congress



A P P E N D I X B


              INSPECTOR GENERAL ISSUED REPORTS

                    WITH QUESTIONED COSTS


                                                     Questioned        Unsupported
                                            Number     Costs              Costs

A. For which no management decision had
been made by April 1, 2004                    0          0                  0


B. Which were issued from April 1, 2004
through September 30, 2004                    0          0                  0


Subtotals (A + B)                             0          0                  0


C. For which a management decision was

made from April 1, 2004 through 

September 30, 2004                            0          0                  0



(i) dollar of disallowed costs                           0                  0


(ii) dollar value of costs not disallowed                0                  0


D. For which no management decision had
been made by September 30, 2004               0          0                  0


Reports for which no management decision
was made within six months of issuance        0          0                  0




                                            33
April 1, 2004 - September 30, 2004




              INSPECTOR GENERAL ISSUED REPORTS

                 WITH RECOMMENDATIONS THAT

                  FUNDS BE PUT TO BETTER USE 


                                                           Number   Dollar Value

 A. For which no management decision had been
 made by April 1, 2004                                       0           0


 B. Which were issued from April 1, 2004 through
 September 30, 2004                                          1       $ 400,000


 Subtotals (A + B)                                           1       $ 400,000


 C. For which a management decision was made
 from April 1, 2004 through September 30, 2004               1


 (I) dollar value of recommendations that were
 agreed to by management                                             $ 400,000


 (ii) dollar value of recommendations that were not
 agreed to by management                                                 0


 D. For which no management decision had been
 made by September 30, 2004                                  0


 Reports for which no management decision was
 made within six months of issuance                          0




                                                      34
                                                                   Semiannual Report to the Congress



A P P E N D I X C
                C


REPORT ON RECEIVABLES, WAIVERS, AND
RECOVERIES
   The FY 1999 appropriations language for this office requires the reporting of additional information
   concerning actual collections, offsets and funds put to better use achieved as a result of Inspector
   General activities.

   Office of Audit

              Funds to be put      Funds Agreed         Receivables                   Recoveries
    Report      to better use      by Management        Established      Waivers        to date


    99-03     $          50,850    $         50,850     $     50,580    $   50,490    $       360

    99-14                83,000              83,000*          34,423                       30,584

    99-16            48,000,000          48,000,000

    99-17            11,000,000          11,000,000                                   1,604,535**

    00-16               235,000             235,000                                       253,846***

    04-10               400,000             400,000

   * This figure includes monies owed to the agency and overpayments which must be refunded.
   ** This figure represents case corrections that resulted in receivables, annuitant payments,
      employer tax credits and liabilities.
   ***This figure represents returned payments credited to debtor accounts.

   Office of Investigations

   Recoveries realized by the RRB resulting from court-ordered restitution and civil damages:

   October 1, 1998 - March 31, 1999                    $ 344,465
   April 1, 1999 - September 30, 1999                  $ 511,190
   October 1, 1999 - March 31, 2000                    $ 495,402
   April 1, 2000 - September 30, 2000                  $ 542,732
   October 1, 2000 - March 31, 2001                    $ 457,015
   April 1, 2001 - September 30, 2001                  $ 533,341
   October 1, 2001 - March 31, 2002                    $ 403,384
   April 1, 2002 - September 30, 2002                  $ 382,459
   October 1, 2002 - March 31, 2003                    $ 533,346
   April 1, 2003 - September 30, 2003                  $ 414,530
   October 1, 2003 - March 31, 2004                    $ 371,223
   April 1, 2004 - September 30, 2004                  $ 275,050



                                                35
April 1, 2004 - September 30, 2004



A P P E N D I X D
                D


RRB MANAGEMENT REPORTS*

             MANAGEMENT REPORT ON FINAL ACTION

            ON AUDITS WITH DISALLOWED COSTS FOR

        THE SIX MONTH PERIOD ENDING SEPTEMBER 30, 2004


                                                                                   Disallowed
                                                            Number                   Costs

 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                      0                       0

 B. Audit reports on which management decisions
 were made during the period.                                  0                       0

 C. Total audit reports pending final action during
 the period.                                                   0                       0

 D. Audit reports on which final action was taken
 during the period.

 1. Recoveries

    (a) Collections                                            0                       0
    (b) Property                                               0                       0
    (c) Other                                                  0                       0


 2. Write-offs                                                 0                       0


 3. Total of 1 and 2                                           0                       0


 E. Audit reports needing final action at the                  0                       0
 end of the period.


* The information contained in this section has been provided by RRB management.




                                                      36
                                                                      Semiannual Report to the Congress



     MANAGEMENT REPORT ON FINAL ACTION ON AUDITS

   WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE

   FOR THE SIX MONTH PERIOD ENDING SEPTEMBER 30, 2004


                                                                                      Funds to be put
                                                              Number                   to better use
 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                         2                    $ 48,529,996 *

 B. Audit reports on which management decisions
 were made during the period.                                     1                     $   400,000 **

 C. Total audit reports pending final action during
 the period.                                                      3                    $ 48,929,996

 D. Audit reports on which final action was taken
 during the period.

 1. Value of recommendations implemented.                         0                     $    0

 2. Value of recommendations that management
 concluded should not or could not be
 implemented.                                                     0                     $    0

 3. Total of 1 and 2.                                             0                     $    0

 E. Audit reports needing final action at the end of
 the period.                                                      3                    $ 48,929,996

* Comprised of the following amounts: $48,000,000 from Audit Report 99-16, “Financial Interchange: Status of
Prior Recommendations for Change;” and $529,996 from Audit Report 01-11, “Review of the Quality of the
Debt Recognition and Collection Process for Railroad Retirement Act Overpayments.”

**Identified in Audit Report 04-10, “Review of Spouse Annuity Work Deductions at the Railroad Retirement
Board.”




                                                       37
April 1, 2004 - September 30, 2004



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

               AS OF SEPTEMBER 30, 2004

                                                    Funds to be
                                      Disallowed    put to better         Reason action has not
         Report              Date       Costs       use                      been completed

Review of Quality           1/22/97     None            None	       The remaining recommendation is
Assurance Activities                                                being addressed as part of ongoing
(97-06)                                                             efforts to improve and monitor
                                                                    quality and timeliness.

Review of Non-Priority      3/13/97     None            None	       The Office of Programs is currently
Correspondence                                                      evaluating performance of a tracking
Handling (97-09)                                                    system that would close the
                                                                    remaining recommendation.

Review of Railroad          9/21/99     None            None	       The agency is implementing and
Unemployment Insurance                                              testing programming changes that
Act Contributions (99-14)                                           will expedite the reconciliation
                                                                    process.

Financial Interchange:      9/28/99     None        $48,000,000	    The Social Security Administration
Status of Prior                                                     and the RRB have agreed on a
Recommendations for                                                 methodology to include uncollectible
Change (99-16)                                                      overpayments in future financial
                                                                    interchange calculations.

Information Systems         6/28/00     None            None	       The agency has implemented 12
Security (INFOSEC)                                                  recommendations, and is working to
Assessment Report                                                   close out the remaining 3.

Review of Document     11/17/00         None            None	       The agency is in the process of
Imaging - Railroad                                                  utilizing hardware and software
Unemployment Insurance                                              approaches to enhance network
Act Programs (01-01)                                                server backup capabilities during
                                                                    fiscal year 2005.

Audit of the RRB’s          2/23/01     None            None	       The Bureau of Information Services
FY 2000 Financial                                                   will address the last
Statements (01-03)                                                  recommendation on problem reports
                                                                    pending available funds.

Site Security Assessment    7/20/01     None            None	       The Bureau of Information Services
for the RRB                                                         has closed out 10 recommendations,
                                                                    and is in the process of addressing
                                                                    the last 2.




                                                   38
                                                                       Semiannual Report to the Congress



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

               AS OF SEPTEMBER 30, 2004
                                                     Funds to
                                        Disallowed   be put to                Reason action has not
         Report                Date       Costs      better use                  been completed

Review of the Quality of     8/09/01      None            $ 529,996	    The Office of Programs will evaluate
the Debt Recognition                                                    the results of a case review and
and Collection for RRA                                                  hopes to issue findings in the spring
Overpayments (01-11)                                                    of 2005.

Security Controls            8/17/01      None              None	       The Bureau of Information Services
Analysis for the Office of                                              has closed 35 recommendations and
Inspector General                                                       is currently addressing the remaining
                                                                        3.

Review of Information        2/05/02      None              None	       The Bureau of Information Services
Security at the Railroad                                                has closed 15 recommendations and
Retirement Board                                                        is currently addressing the remaining
(02-04)                                                                 13.

FY 2002 Evaluation of        8/27/02      None              None	       The agency has updated its disaster
Information Security at                                                 recovery plans, and is developing
the RRB (02-12)                                                         documentation needed to close the
                                                                        remaining recommendation.

Evaluation of the Self- 12/27/02          None              None	       The Bureau of Information Services
Assessment Process for                                                  is devising procedures to improve
Information System                                                      system security assessments,
Security (03-02)                                                        including use of automated software
                                                                        tools.

Evaluation of RRB E-         12/27/02     None              None	       The Bureau of Fiscal Operations
government Initiative:                                                  closed nine recommendations and is
RUIA Contribution                                                       working on an MOU with Treasury to
Interest Reporting and                                                  close the remaining two.
Payment (03-03)

Review of the RRB’s          3/18/03      None              None	       The agency will use its management
Progress in Meeting                                                     control process to determine
Selected Federal                                                        compliance with financial
Financial Management                                                    management guidelines to address
Requirements (03-04)                                                    the remaining recommendation.




                                                     39
April 1, 2004 - September 30, 2004



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

               AS OF SEPTEMBER 30, 2004

                                                       Funds to
                                     Disallowed        be put to          Reason action has not
         Report              Date      Costs           better use           been completed

Inspection of Unverified   3/20/03     None               None	     The Office of Programs is reviewing
Records in the RRB’s                                                records and developing procedures
Employment Data                                                     to verify employer reported data for
Maintenance System                                                  individual railroad workers.
(03-06)

Actions Taken to Improve 8/20/03       None               None	     The Office of Administration has
Internal Control Over                                               installed enhanced software and is in
Fixed Assets (03-08)                                                the process of affixing bar codes to
                                                                    finalize and update the asset
                                                                    inventory.

Review of the RRB’s     9/8/03         None               None	     The Bureau of Information Services
PIN/Password System for                                             will establish procedures as part of
On-Line Authentication                                              its standards update for Report 03-
(03-09)                                                             10 to close the remaining
                                                                    recommendation.

Review of the Systems      9/8/03      None               None	     The Bureau of Information Services
Development Life Cycle                                              is purchasing software and
for End-User Computing                                              identifying needed programming to
(03-10)                                                             improve tracking and quality reviews
                                                                    of systems projects.




                                                  40
                                                               Semiannual Report to the Congress



A P P E N D I X E
REPORTING REQUIREMENTS

Inspector General Requirements                                                                   Page

    Section 4(a)(2) - Review of Legislation and Regulations                                         31
    Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                 6
    Section 5(a)(2) - Recommendations With Respect to Significant Problems,
     Abuses, and Deficiencies                                                                        7
    Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented                          7
    Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                   19
    Section 5(a)(5) - Instances Where Information Was Refused                                    None
    Section 5(a)(6) - List of Audit Reports                                                         32
    Section 5(a)(7) - Summary of Each Significant Report                                             6
    Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                33
    Section 5(a)(9) - Statistical Tables on Management Decisions on
     Recommendations That Funds Be Put to Better Use                                                34
    Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
     For Which No Management Decision Has Been Made                                              None
    Section 5(a)(11) - Description and Explanation for Any Significant
     Revised Management Decision                                                                 None
    Section 5(a)(12) - Information on Any Significant Management Decisions
     With Which the Inspector General Disagrees                                                  None


Management Requirements


    Section 5(b)(1) - Comments Deemed Appropriate                                    Transmittal Letter
    Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                         36
    Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  37
    Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          38




                                                41
              REPORT


FRAUD, WASTE AND ABUSE





Call the OIG Hotline:
         1-800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: 	RRB-OIG Hotline Officer
        844 North Rush Street
        Chicago, IL 60611-2092
